FILING AND MAILING CERTIFICATE

In compliance with Supreme Court Rule 29, I hereby certify that on
this 20th day of August 2021, I mailed to the Clerk of the Court for the
United States Supreme Court the required number of copies of this PETITION
FOR WRIT OF CERTIORARI WITH THE APPENDIX and further certify that I mailed
three (3) copies to opposing counsel. All parties required to be served have
been served.
The necessary filing and mailing was performed in accordance with the
instructions given me by counsel in this case and are in compliance with 28
U.S.C. ยง 1746.

Fred Sowar
Appellate Advisors
1081 Locust Corner Rd.
Cincinnati, OH 45245
513-601-4844
OPPOSING COUNSEL SERVED:
Eugene Ray Critchett
Law Office
1071 S. High Street
Columbus, OH 43206
614-610-9432

